No.

IN THE
SUPREME COURT OF THE UNITED STATES

Jung Hyun Cho, et al. - PETITIONERS
VS.
Select Portfolio Servicing, Inc. et al. - RESPONDENTS

PROOF OF SERVICE
I, Jung Hyun Cho, do declare that on this date, September 21, 2020, as required by
Supreme Court Rule 29, I have served the enclosed PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding by electronically filing the
documents through PACER in U.S. Court for 9th Circuit, with the exception of WMC
Mortgage LLC that will receive an envelope containing the above documents in the United
States mail properly addressed to the address shown below with Priority Mail postage
prepaid, regardless of its administrative closure status.
The names and addresses of those served are as follows:
Select Portfolio Servicing, Inc.
c/o Buchalter
Tiffany F. Ng / Douglas C. Straus
55 Second Street Suite 1700
San Francisco, California 94105-3493
Deutsche Bank National Trust Company
c/o Buchalter
Tiffany F. Ng / Douglas C. Straus
55 Second Street Suite 1700
San Francisco, California 94105-3493
Email: tng@buchalter.com :dstraus@buchalter.com
Bank of America
c/o SEVERSON & WERSON
Joel Spann, Jan T. Chilton, Kerry W. Franich
One Embarcadero Center 26th Floor
San Francisco, CA94111
Email: jcs@severson.com;jtc@severson.com;kwf@severson.com
WMC Mortgage LLC
23

c/o Jamie L. Ackeerman
140 New Port Center Drive, Suite 260
Email: Jamie@NewportCoastlaw.com
The Wolf Firm, a law corporation
Christine E. Howson
2955 Main Street, 2nd floor
Irvine, CA 92614
Christine.howson@wolfFirm.com
Ronald Lee
c/o Klinedinst
Lindsey N. Casillas
801 K Street, Ste. 2100
Sacramento, California 95814
Email: LCasillas@KlinedinstLaw.com
Juan Gomez
c/o Klinedinst
Lindsey N. Casillas
801 K Street, Ste. 2100
Sacramento, California 95814
Email: LCasillas@KlinedinstLaw.com
Solano County Tax Assessor
c/o Matheny Sears Linkert Jaime LLP
Raymond Bangle III
3638 American River Drive
Sacramento, CA95864
New Port Beach, CA 92660
Email: rbangle@mathenysears.com

I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 23, 2020

Jung Hyun Cho

24

i

